In the

Supreme Court of the United States
October Term, 2021

Luis Pitt,
Petitioner,
v.
United States of America,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES COURT
OF APPEALS FOR THE SECOND CIRCUIT

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The Petitioner, Luis Pitt, requests leave to file the annexed Petition for a Writ of
Certiorari to the United States Supreme Court for the Second Circuit without prepayment
of costs and to proceed in forma pauperis pursuant to Rule 39. The United States Court
of Appeals for the Second Circuit appointed counsel, Robin C. Smith, under the Criminal
Justice Act of 1964, 18 U.S.C. Section 3006A, to represent Petitioner. Petitioner has
remained incarcerated since the commencement of his case, and, on information and
belief, is indigent.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

July 1, 2021
San Rafael, California

ROBIN C. SMITH, ESQ.
Law Office of Robin C. Smith,
Esq., P.C.
Attorney for Petitioner
802 B Street
San Rafael, CA 94901
(415) 726-8000
rcs@robinsmithesq.com

